<html>
<title> - THE STATUS OF AMERICAN HOSTAGES IN IRAN</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]


                THE STATUS OF AMERICAN HOSTAGES IN IRAN

=======================================================================

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
       THE MIDDLE EAST, NORTH AFRICA, AND INTERNATIONAL TERRORISM

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             MARCH 7, 2019

                               __________

                           Serial No. 116-12

                               __________

        Printed for the use of the Committee on Foreign Affairs

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]
       
       Available:  http://www.foreignaffairs.house.gov/, http://
                            docs.house.gov, 
                       or http://www.govinfo.gov
                      
                               __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
35-370PDF                  WASHINGTON : 2019                     
          
--------------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center,
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="abdbc4ebc8ded8dfc3cec7db85c8c4c685">[email&#160;protected]</a>                                
                      
                      COMMITTEE ON FOREIGN AFFAIRS

                   ELIOT L. ENGEL, New York, Chairman
                   
                   
 BRAD SHERMAN, California             MICHAEL T. McCAUL, Texas, Ranking 
GREGORY W. MEEKS, New York               Member
ALBIO SIRES, New Jersey		     CHRISTOPHER H. SMITH, New Jersey     
GERALD E. CONNOLLY, Virginia         STEVE CHABOT, Ohio
THEODORE E. DEUTCH, Florida	     JOE WILSON, South Carolina
KAREN BASS, California		     SCOTT PERRY, Pennsylvania
WILLIAM KEATING, Massachusetts	     TED S. YOHO, Florida
DAVID CICILLINE, Rhode Island	     ADAM KINZINGER, Illinois
AMI BERA, California		     LEE ZELDIN, New York
JOAQUIN CASTRO, Texas		     JIM SENSENBRENNER, Wisconsin
DINA TITUS, Nevada		     ANN WAGNER, Missouri
ADRIANO ESPAILLAT, New York          BRIAN MAST, Florida
TED LIEU, California		     FRANCIS ROONEY, Florida
SUSAN WILD, Pennsylvania	     BRIAN FITZPATRICK, Pennsylvania
DEAN PHILLPS, Minnesota	             JOHN CURTIS, Utah
ILHAN OMAR, Minnesota		     KEN BUCK, Colorado
COLIN ALLRED, Texas		     RON WRIGHT, Texas
ANDY LEVIN, Michigan		     GUY RESCHENTHALER, Pennsylvania
ABIGAIL SPANBERGER, Virginia	     TIM BURCHETT, Tennessee
CHRISSY HOULAHAN, Pennsylvania       GREG PENCE, Indiana
TOM MALINOWSKI, New Jersey	     STEVE WATKINS, Kansas
DAVID TRONE, Maryland		     MIKE GUEST, Mississippi
JIM COSTA, California
JUAN VARGAS, California
VICENTE GONZALEZ, Texas                                                
                   
                     Jason Steinbaum, Staff Director

               Brendon Shields, Republican Staff Director
                                 ------                                

   SUBCOMMITTEE ON THE MIDDLE EAST, NORTH AFRICA, AND INTERNATIONAL 
                               TERRORISM

                       THEODORE DEUTCH, Chairman

GERALD CONNOLLY, Virginia            JOE WILSON, South Carolina, 
DAVID CICILLINE, Rhode Island            Ranking Member
TED LIEU, California                 STEVE CHABOT, Ohio
COLIN ALLRED, Texas                  ADAM KINZINGER, Illinois
TOM MALINOWSKI, New Jersey           LEE ZELDIN, New York
DAVID TRONE, Maryland                BRIAN MAST, Florida
BRAD SHERMAN, California             BRIAN FITZPATRICK, Pennsylvania
WILLIAM KEATING, Massachusetts       GUY RESCHENTHALER, Pennsylvania
JUAN VARGAS, California              STEVE WATKINS, Kansas

                      Casey Kustin, Staff Director
                           
                           
                           C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

Levinson, Christine, wife of Robert Levinson.....................     7
Namazi, Babak, brother of Siamak Namazi and son of Baquer Namazi.    13
Zakka, Omar, son of Nizar Zakka..................................    18

                                APPENDIX

Hearing Notice...................................................    45
Hearing Minutes..................................................    46
Hearing Attendance...............................................    47

             ADDITIONAL MATERIALS SUBMITTED FOR THE RECORD

Robert Levinson Fact Sheet.......................................    48
Letter from Representative Jayapal...............................    49
Letter from Governor Inslee......................................    50
Questions for the record submitted from Representative Watkins...    52

 
                THE STATUS OF AMERICAN HOSTAGES IN IRAN

                             MARCH 7, 2019

                      House of Representatives,    
Subcommittee on the Middle East, North Africa, and 
                            International Terrorism
                      Committee on Foreign Affairs,
                                                     Washington, DC

    The committee met, pursuant to notice, at 1:33 p.m., in 
Room 2172 Rayburn House Office Building, Hon. Theodore E. 
Deutch (chairman of the subcommittee) presiding.
    Mr. Deutch. This hearing will come to order. I start by 
asking unanimous consent that the gentleman from Florida, Mr. 
Waltz, be allowed to sit on the dais and participate in today's 
hearing. Without objection, so ordered.
    Welcome, nice to have you with us.
    This hearing, entitled ``The Status of American Hostages in 
Iran," will allow members of the Levinson, Namazi, and Zakka 
families to share information about their loved ones who remain 
imprisoned or missing in Iran. The hearing will also help 
subcommittee members examine how Congress can both hold Iran 
accountable for its actions and advance efforts to bring 
detained American citizens and legal residents home.
    Without objection, all members may have 5 days to submit 
statements, questions, and extraneous materials for the record 
subject to the length limitations in the rules. I will offer an 
opening statement and then turn it over to the ranking member, 
Mr. Wilson, for his opening statement.
    I want to welcome our witnesses. I am heartbroken to see 
you back at this table. I thank each of you for your courage 
and for your advocacy. It is my goal to have this be the last 
hearing like this that we do together. I want to acknowledge 
all the families, the family members that are here today in the 
audience and if you would, I would ask you to stand.
    Please know that we see you and we support you and we thank 
you for being here. You may be seated, thanks.
    I thank the ranking member for his partnership. In 
conjunction with today's hearing, Ranking Member Wilson and I 
are introducing a number of related legislative efforts. We 
would welcome the support of all members of the subcommittee.
    Saturday will mark the 12th anniversary of the 
disappearance of Robert Levinson from Iran's Kish Island. Bob 
was last seen at his hotel on March 9th, 2007. Bob is a 
patriot. Bob devoted 30 years to serving his country, first 
with the DEA and then a quarter century with the FBI. Bob is a 
husband of 40 years. He is a father of seven. He is a 
grandfather of six, five of whom he has never met.
    Bob is my constituent and a part of our community back in 
Coral Springs, Florida. Bob is not at home enjoying his 
retirement and his family because of Iran. In the days after 
Bob disappeared, Iranian State TV reported he was in government 
custody, yet the story soon changed. To this day, Iran's 
leaders refuse to acknowledge it is responsible for Bob's 
disappearance.
    The regime has never fulfilled its repeated promises of 
assistance on locating and returning Bob. To echo my former 
Florida colleague, Senator Bill Nelson, who fought on behalf of 
the Levinson family for a decade, ``If Iran does not have Bob, 
they know who does and where to find him.'' Bob Levinson is the 
longest-held American hostage. Today, Mr. Wilson and I 
introduce the Bob Levinson Hostage-Taking Accountability Act 
that strengthens U.S. Government policy on hostage taking and 
authorizes sanctions on those who engage in hostage taking.
    Today, we are joined by Bob's wife, Christine, and three of 
his seven children, Sarah, Dan, and Doug. We thank them and 
their four siblings, Susan, Stephanie, Samantha, and David for 
their strength and for their advocacy. I have gotten to know 
the Levinsons over the past 9 years I have been in Congress. 
They are remarkable. I am grateful to know them and I wish that 
I did not have to know them under these circumstances.
    Doug and Dan have each sat at this witness table where 
their mother sits today. We cannot and we must not convene 
another hearing where we sit across from a member of this 
family. Iran's despicable practice of holding Americans and 
other foreign nationals hostage should not be tolerated by any 
responsible nation.
    Today we will hear from Babak Namazi about the horrific 
conditions his brother and father have faced since they were 
imprisoned in 2015 and 1916, respectively. Siamak detained 
first followed by his father Baquer, a former United Nations 
official, is in his 80's. Baquer's health has dramatically 
deteriorated since his detention. Siamak and Baquer were 
sentenced to 10 years in prison at a sham trial, their appeals 
repeatedly denied. Baquer should not spend the rest of his life 
in prison. He and Siamak must be released immediately and 
returned to their family.
    The subcommittee first heard from Omar Zakka when he was 
still in high school. Omar's father, Nizar, is a U.S. legal 
permanent resident and a Lebanese citizen. Nizar is an IT 
professional who was invited to Iran to participate in an IT 
conference. Let me say that again. He was invited to the 
country and then detained. Nizar has been in prison since 2015 
and his physical state has weakened. Like the Namazis, he was 
sentenced to 10 years in a sham trial in 2016.
    And these families are not the only families suffering. 
There are other Americans in Iran. Xiyue Wang is a doctoral 
student at Princeton who went to Iran to do research for his 
dissertation. He was arrested on bogus charges and sentenced to 
10 years in Iran's notorious Evin Prison.
    I would note that just months ago, Iran also arrested 
Michael White, a U.S. Navy veteran, in July. White was beaten, 
has no money to hire a lawyer, and still does not know if any 
charges are filed against him. White is a former cancer patient 
and his health is worsening. Furthermore, there are Canadians 
and Brits and French detained in Iran. It is disgusting the way 
that this regime disregards the human rights of its own people 
and of foreign nationals.
    Hostage taking is a violation of international law. For the 
Levinsons, they have now worked with three U.S. 
administrations; the rest of the families are on their second. 
They encounter the same problems time after time, well-meaning 
officials who run into bureaucratic hurdles, geopolitical 
shifts in our relations with Iran and, worst of all, being left 
behind when others come home.
    This administration has taken pride in its ability to bring 
Americans home, but I am concerned that the withdrawal from the 
JCPOA, the heightened rhetoric, and lack of contact with any 
Iranian officials may slow down efforts to return these 
Americans to their families. But I urge the administration and 
I urge President Trump to sit down with each of these families, 
hear their stories, understand their suffering, and then take 
bold action to return their loved ones.
    And I will turn it over to the ranking member, Mr. Wilson, 
for his opening statement.
    Mr. Wilson. Thank you, Chairman Ted Deutch. I want to thank 
you for holding this important hearing today. I am grateful to 
work with you on this subcommittee on such critical issues. You 
have long fought for the release of Americans unjustly held in 
Iran and I have been particularly inspired by your hard work 
highlighting the case of your constituent, Robert Levinson, who 
disappeared in Iran in 2007.
    Sadly, today is the 12th anniversary of his disappearance. 
I hope that together we can continue the bipartisan tradition 
of the committee of elevating these tragic cases as you and the 
former chairman of the subcommittee, Ileana Ros-Lehtinen, have 
been so successful in raising this issue in the past.
    Ms. Levinson, Mr. Namazi, Mr. Zakka, thank you for being 
here today to share your stories of your loved ones. None of us 
can imagine what your families go through every single day. 
Your testimony today will give Congress and the American people 
a small window into the imaginable reality that you face each 
day.
    Iran is currently holding at least eight Americans and dual 
U.S.-Iranian nationals on trumped up charges that amount to 
clear and definitive hostage taking. At least nine other 
individuals with British, French, Australian, and Canadian 
nationality are also being held by the regime. This is 
unfortunately not the first time this subcommittee has held a 
hearing on Iran's hostages.
    Iran's taking of hostage in exchange for political or 
financial concessions is morally reprehensible. It is symbolic 
of Iran's outrageous disregard for international law and basic 
human decency. It goes hand in hand with the regime's 
designation as the foremost State sponsor of terrorism in the 
world. We need to see additional pressure and sanctions 
specifically against Iranian individuals and entities 
responsible for detaining the family members of our witnesses 
here today. Iran has been taking hostages as a matter of policy 
and we must force Iran to change its behavior. We need to see 
an intense, concerted effort from Congress and the 
administration to seek the release of our Americans who are 
being held in Iran.
    I am grateful to join Chairman Deutch as the lead 
Republican on two important pieces of legislation introduced 
today, including a resolution that will be calling for the 
immediate release of Mr. Levinson, Siamak and Baquer Namazi, 
and Nizar Zakka. With all three are U.S.--and all other U.S. 
citizens, legal permanent residents, and foreign nationals 
which are being held in Iran. The other crucial measure that 
will be introduced would impose sanctions on any foreign person 
responsible for or complicit in the unlawful detention abroad 
of a U.S. national.
    It is time for Iran and other rogue regimes to pay the 
price for taking American hostages. I urge this committee to 
take up the bills as soon as possible. And, hey, I know they 
will with Chairman Deutch. Thank you again for the 
extraordinary and brave and courageous witnesses who are here 
today. We look forward to your testimony. I yield back.
    Mr. Deutch. Thank you, Mr. Wilson.
    I will now introduce the witnesses. Mrs. Christine Levinson 
is the wife of Robert Levinson; Mr. Babak Namazi is the brother 
of Siamak Namazi and the son of Baquer Namazi; and Mr. Omar 
Zakka is the son of Nizar Zakka.
    Mrs. Levinson, you are recognized. Witnesses please limit 
your testimony to 5 minutes and, without objection, your 
written statements will be made a part of the record. Thanks 
again for being here.
    Christine, Mrs. Levinson.

    STATEMENT OF CHRISTINE LEVINSON, WIFE OF ROBERT LEVINSON

    Mrs. Levinson. Mr. Chairman, Ranking Member, and 
distinguished members of this committee, my name is Christine 
Levinson. I am the wife of Robert ``Bob" Levinson, an American 
held by the Iranian Government. My husband is the longest-held 
hostage in American history. If I had my choice I would not be 
sitting here before you to give the testimony I am about to 
give. I would sitting at home with my husband by my side. I am 
only here out of necessity.
    My husband, Bob, has been a hostage for 12 years. Despite 
trying to get him home by every means possible, I am absolutely 
no closer than I was when he first went missing on March 9th, 
2007. I hold the Iranian Government responsible, but I believe 
the U.S. Government is at fault as well. Bob was taken nearly 
12 years ago to this day on Kish Island, Iran.
    Since that time, my family and I have had no direct contact 
with him. A few years ago we received a video of him as a 
hostage pleading for help of the U.S. Government, then we 
received photos of him wearing an orange jumpsuit. We have been 
unable to obtain any information on what needs to be done to 
return Bob home. All the facts of this case tell us that the 
Iranian authorities kidnapped my husband.
    I have been to Kish Island. I believe it would be 
impossible for the Iranian Government not to know what happened 
to Bob. We have confirmed that he made it to his hotel on Kish 
on March 8th, 2007, and left the hotel the next day. But his 
name was nowhere to be found on the passenger manifest for the 
flight returning to Dubai.
    Additionally, the FBI assessment of the video and photos we 
received years later concluded that the Iranian Government had 
to have developed them and sent them to us. The FBI also has a 
$5 million reward that remains unclaimed. The evidence is so 
conclusive that the United Nations released an opinion in 2016 
holding Iran responsible for Bob's continued deprivation of 
liberty, yet Iran has been allowed to feign ignorance over and 
over again with absolutely no consequences from the U.S.
    My family's dreams of reuniting with Bob continue to remain 
just dreams. We believe he is alive and we continue to receive 
reports that he is alive. At this time, there is mounting 
urgency for his health and well-being. Every moment is of the 
essence for Bob, who turns 71 this Saturday. After three very 
different Presidential administrations, we are no closer to 
bringing Bob home than we were when we started. We have 
nothing. There have been some dedicated people from various 
government agencies on the front lines of Bob's case working 
hard to get him home. We are deeply grateful to them.
    At the same time, we have experienced shocking dysfunction 
from our other officials. It became clear to me early on that 
major government bodies were not even talking to each other 
about the case. In the past, statements and misstatements to 
the media by U.S. officials about Bob's status questioning if 
he is alive or in Iran have severely undercut the efforts to 
hold Iran accountable. We know this because Iranian authorities 
have thrown these wrong statements back in our faces.
    The Iranians still regularly point to a statement made in 
error by the White House several years ago that Bob was not in 
Iran. That was wrong. But the U.S. Government gave Iran an 
excuse not to send Bob home. And in January 2016, when other 
American hostages were released and Bob was left behind, the 
U.S. Government let Iran get away with it. My husband served 
this country tirelessly for decades. He deserves better from us 
and from our government.
    In addition to being a patriot, Bob is an incredible 
husband and father. We have raised seven children together. 
When our youngest daughter gets married in just 2 months, it 
will be the last daughter he has the opportunity to walk down 
the aisle, and everyone knows how important that is to a dad. 
Not a day or week goes by that I do not get a phone call from 
one of my children saying how much they miss Bob and struggle 
without him.
    We are all suffering a living nightmare. We wonder 
endlessly what kind of conditions my husband is living through. 
We know how deeply he must ache physically and spiritually from 
being away from us for so long, by being away from anyone he 
knows and loves with absolutely no human rights. What kind of 
hell must he be living in that both our government and Iranian 
authorities have allowed him to live in for so long?
    I want to close my testimony by asking each of you to 
imagine how devastated you would feel being ripped away from 
your family with no contact with your loved ones and no contact 
with the outside world. My husband has been held captive for 
4,381 days. That is 12 years this Saturday, without his family. 
Imagine how alone he must feel. We need your help.
    Today, Congressman Deutch and Senators Menendez and Rubio 
introduced the Robert Levinson Hostage Recovery Hostage-Taking 
Accountability Act. I cannot thank them enough for their 
continued support for Bob and our family. I truly hope this 
will be something that brings Bob home. But when Saturday's 
anniversary passes and the media attention immediately shifts, 
a different issue will take the priority and we will again feel 
like we have this immense burden alone. Without you we cannot 
succeed. Please help my family to get Bob home. Thank you.
    [The prepared statement of Mrs. Levinson follows:]

    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    
    Mr. Deutch. Thank you, Mrs. Levinson.
    Mr. Namazi, you are recognized.

STATEMENT OF BABAK NAMAZI, BROTHER OF SIAMAK NAMAZI AND SON OF 
                         BAQUER NAMAZI

    Mr. Namazi. Mr. Chairman and distinguished members of the 
subcommittee, thank you for inviting me to testify today. I sit 
before you in utter desperation and disbelief that over three 
and a half years into my family's indescribable anguish both my 
82-year-old ailing father Baquer Namazi and 47-year-old brother 
Siamak Namazi continue to unjustly and cruelly languish in 
Iran, each with 10-year prison sentences.
    For reasons I still do not understand, my innocent family 
was targeted by Iran's Revolutionary Guards and being used as 
pawns and hostages. Since this nightmare began, my family has 
faced the evil might and power of the IRGC which has imposed on 
us a relentless and sustained campaign of cruelty, pain, 
suffering, lies, and horrors which continue until today.
    I am here today, however, because it must be emphasized 
that the situation for my family, and especially my seriously 
ill father, is critical and swiftly heading toward an 
irreversible tragedy unless something is done and done 
urgently. I am here today to implore the Trump administration, 
the U.S. Congress, the United Nations and, really, anyone at 
all to help me save the lives of my father and brother.
    Since my father's unjust imprisonment in February 2016, he 
has been hospitalized eight times, two of which required 
emergency heart-related surgeries including the installation of 
a pacemaker. My father would only be rushed to the hospital by 
the IRGC when his health reached critical deterioration and 
often his requests for medical attention were ignored, causing 
severe harm.
    My father lost over 20 pounds, was placed for extended 
periods in solitary confinement, and was subjected to severe 
psychological torment. While my father is currently on a 
restricted, temporary medical furlough, his health continues to 
decline. In fact, the rate of deterioration is accelerating 
daily. Aside from his already weakened heart and related 
ailments which continue to deteriorate, he has been recently 
diagnosed with epilepsy as well as a 70 percent blockage of 
main arteries leading to his brain, significantly increasing 
the risk of a stroke.
    My father is getting weaker every day and cannot take a few 
steps without his knees buckling under him and loss of balance. 
It seems every day a new ailment unleashes itself on my frail 
father. We live in constant fear that at any moment my father 
will have his temporary medical furlough revoked and be dragged 
back to Evin Prison. It is due to this fear that I reluctantly 
have been keeping a lower profile and drawing less attention to 
our plight.
    But as the only capable family member living in freedom I 
must do all I can to save my beloved father and brother. I can 
no longer keep quiet. The horrific and painful realities is 
that my father is dying. He needs proper medical attention 
outside of Iran and is living on borrowed time. Unless he is 
allowed to leave urgently, I feel already desperate 
circumstances will turn tragic.
    I have begged repeatedly and do so again for the Iranian 
Government to allow my sick father to be allowed to leave Iran. 
We do not want my father to leave Iran in a coma, or worse, 
dead. The situation is also terrible for my innocent brother 
Siamak who has been languishing in Evin Prison since October 
2015.
    Mr. Chairman, going against all values that we stand for as 
Americans, the prior administration inexplicably and 
unforgivably left Siamak behind in January 2016 when it brought 
other American hostages home. At the time, a mere promise made 
by the Iranians to release my brother within weeks provided 
license to leave an American behind in the name of the greater 
good of a nuclear deal.
    Well, we know how that horrific miscalculation turned out 
for my family. Not only was my brother not released, but the 
IRGC doubled down and also arrested my father who had been 
lured back to visit my brother, shattering our lives beyond 
what we could have ever imagined. I spend a lot of time still 
wondering how our lives would have been so different today had 
Siamak not been abandoned in January 2016.
    Both my father and Siamak are innocent and are being used 
as pawns and hostages. My father has spent his entire life 
serving humanity, including decades spent working with UNICEF 
in the most dangerous parts of the world. Growing up, my 
brother and I missed having my dad around terribly, but we 
understood the importance of his humanitarian mission. It is 
because of his impeccable record with UNICEF that the U.N. 
Secretary General, UNICEF, and hundreds of U.N. staff and 
retirees have privately and publicly reached out to the highest 
levels of the Iranian Government to ask them to release my 
father on humanitarian grounds.
    Siamak similarly followed in my father's footsteps in 
serving humanity. In his most recent efforts, Siamak published 
a detailed report in 2013 that identified the negative effects 
of U.S. sanctions on lifesaving medicine and medical equipment 
reaching the Iranian people. In part, due to his work, the U.S. 
Government relaxed its rules to allow more lifesaving medicine 
to reach the Iranian people.
    I have engaged countless Trump administration officials to 
advocate for my family. With the recent appointment of the 
Special Presidential Envoy on Hostage Affairs Robert O'Brien, I 
am glad there is finally a person responsible for coordinating 
and leading the efforts to bring home hostages like my family. 
I am grateful to Robert and his team for working incredibly 
hard at this. However, the reality is that more than 2 years 
after President Trump's inauguration, at least to me, it seems 
that we are not any closer to bringing my family and other 
hostages home.
    While I do not understand the politics involved between our 
country and Iran, what I do know is that whatever has been 
tried so far has not worked. I strongly believe that only 
through direct engagement focused on the humanitarian 
imperative of bringing home American hostages will there be a 
likelihood of success. While a direct dialog will not guarantee 
success, in my view, the absence of dialog will guarantee 
failure, a failure which would result in my father's death and 
my brother serving at least 10 years in prison. We cannot 
afford to spare any efforts.
    I am counting on President Trump to stay good to his word 
that Americans will not languish in Iran when he is President. 
The President has had great success in freeing other American 
hostages from other countries like North Korea, Venezuela, 
Turkey, Yemen, and Egypt, and I implore the President to spare 
no effort to bring my family and other American hostages home 
from Iran.
    Finally, I would like to share with you a part of a 
personal message from my dad to his UNICEF colleagues urging 
them to continue humanitarian efforts on behalf of the needy. 
My father sent this message to me as he was being forced back 
to prison after one of his emergency heart-related surgeries:
    ``While the pain of those dearest to me continues to hurt 
deeply, I am also sorry that with the help of all of you and 
other great humanitarians that I could not continue to serve 
our common cause of peace for children, especially in the 
sorely troubled Middle East region, elimination of poverty 
through people empowerment, combating child trafficking, and 
opening space to hear the voices of the poor. Sustaining these 
great causes will be the best reward that can, God willing, be 
granted to this humble man.''
    My father and brother have dedicated their lives to the 
most important causes of humanity. Now, we desperately and 
urgently need humanity to be a voice for them before it is too 
late. Please be that voice. Thank you.
    [The prepared statement of Mr. Namazi follows:]

    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    
    Mr. Deutch. Thank you, Mr. Namazi, and thank you for 
sharing that message with us.
    Mr. Zakka.

          STATEMENT OF OMAR ZAKKA, SON OF NIZAR ZAKKA

    Mr. Zakka. Good afternoon. My name is Omar Zakka. I am the 
youngest of Nizar Zakka's three sons and I am speaking on 
behalf of all us today. Thank you all, ladies and gentlemen of 
the Congress and representatives of the American people, for 
the opportunity to speak to you today and for the attention you 
give to my father's kidnapping. This is my second time here. I 
was first here in July 25, 2017.
    Mr. Zakka. It is now nearly 4 years since I have seen my 
father. My father was last seen leaving his hotel on 18th of 
September 2015 on the way to the airport. He was kidnapped and 
taken hostage by the IRGC. My father was in Iran on the 
official invitation of the Iranian Vice President, Ms. 
Molaverdi, who had invited my father to speak on the second 
conference on Women and Sustainable Development.
    I repeat, he was officially invited to Iran by the Vice 
President of Iran.
    My father is an internet freedom advocate. He is the 
president of IJMA3, an international NGO that specializes in 
information technology for development, based in Washington, 
DC. He has spent most of his career working on bridging the 
digital divide between different communities around the world. 
In September 2018, 3 years after my father had been taken, his 
host, Mrs. Molaverdi, admitted to the Associated Press that 
Iran had failed my father, and yet my father remains a hostage 
of the Revolutionary Guard.
    The last 4 years and especially in the 2-years since the 
last hearing, life has been very difficult for us. Time and 
again, our hopes that our father will be released have been 
shattered. My father has been subjected to physical and mental 
torture and ill treatment by his captors who continue to exert 
pressure on him to make false confessions to support his 
crimes. Sometimes my father has been promised that if he 
confesses he will be released. My father is a man of honor and 
integrity. He will not confess to crime he has not committed.
    Somehow, my father sustains his mental strength. He has 
just stopped a 3-week hunger strike a few days ago, the only 
means available to him to protest against his treatment. He 
stopped because we, his family and friends, pleaded to him. His 
body cannot handle such a long hunger strike anymore. My father 
has been denied his human rights. When the Foreign Minister of 
Iran, Mr. Zarif, was once asked by the media about my father's 
case, his reply was that my father's case ``is a problem 
between the U.S. and Iran." What problem between the U.S. and 
Iran could justify kidnapping my father?
    Not a single day of those 4 years has passed that my family 
and I do not fear for my family's safety. The feeling of dread 
we experience if we miss my father's call or if we do not hear 
from him for 3 days is unbearable. We are tormented by the fear 
that something terrible has happened to him or will happen to 
him. In December last year, he was taken into incommunicado 
solitary confinement for approximately 40 days. We did not know 
where he was, if he was alive or dead.
    After 4 years of not seeing my father, I see him on film 
released by the Iranian TV, while being arrested. The film was 
shamelessly broadcast by the Iranian State news. The film, part 
of a smear campaign, it was broadcasted four times on prime 
time television. There is no truth whatsoever in these 
allegations. My father is innocent.
    We thank Secretary of State Mr. Pompeo for the following 
statement he made about my father in mid-September 2016 when he 
was in Congress, in which he said: ``This week marks 1 year the 
Iranian Government has been holding hostage Nizar Zakka, a U.S. 
legal permanent resident and international internet development 
expert. Mr. Zakka this week was sentenced to 10 years in 
prison, millions of dollars in fines; his only crime was to 
bring greater internet access to the women of Iran."
    Currently, my father is being held underground sharing four 
crowded cells between 50 of them, about 17 men to each cell. 
The air in my father's cell is rank with the smell of sewage. 
It is infested with rats and bedbugs. There is no designated 
place for him to eat. My father spends 16 hours of each day and 
every day in a coffin-size space, where he sleeps and keeps all 
of his clothes and a few of his possessions. They cannot see 
the sunlight or breathe fresh air at any time except for 2 
hours a day during lunchtime. They have to choose to have lunch 
and miss the sun, or to see the sun and miss lunch.
    My father's kidnapping is an act of State terrorism. Iran 
has conducted this practice of hostage taking for over 40 
years. We believe it will continue if you, the representatives 
of the American people, do not help to put an end to it. We 
have done everything possible in our capacity to put an end to 
this misery. We have reached out to the U.N. and other 
international human rights organizations, have launched 
petitions, we have campaigned for my father's cause in the 
media, and we have issued countless press releases done by my 
brothers and I about my father's case. But we feel like we are 
facing obstacles we do not understand.
    We are looking forward for President Trump to name my 
father and other hostages, while condemning their arbitrary 
detention by IRGC. Such a statement will help us sustain the 
pain and suffering they are experiencing knowing they are not 
forgotten. We ask America to take all available legal and 
diplomatic measures to reunite us with our father. We ask this 
government to do the same for all the families of the other 
hostages.
    Thank you again to the representatives of the American 
people for this opportunity and for your continuous support. 
Thank you.
    [The prepared statement of Mr. Zakka follows:]

    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    
    Mr. Deutch. Thank you, Mr. Zakka. Thank you to all of our 
witnesses.
    Let me begin by asking, on the July 2018 appointment of 
Robert O'Brien to serve as Special Presidential Envoy for 
Hostage Affairs, the National Security Advisor, John Bolton, 
pledged that O'Brien would maintain a collaborative dialog with 
the families of current hostages regarding diplomatic recovery 
efforts for their loved ones.
    I just would ask each of you, in your view, are Special 
Envoy O'Brien and his staff fulfilling that pledge and in what 
areas could there be improvements from your very important 
perspectives?
    Mrs. Levinson.
    Mrs. Levinson. Robert O'Brien and his team are extremely 
helpful in our case. They are available whenever we need them 
to be. Their team coordinates any meetings that we need to have 
and Mr. O'Brien, himself, is in contact with us whenever he 
feels he needs to give us an update on my husband's case. So I 
think the hostage fusion cell as it is called is doing a good 
job and is necessary to maintain the status of one place where 
you can get all the information about a hostage.
    Mr. Deutch. Good. Thank you, Mrs. Levinson.
    Mr. Namazi.
    Mr. Namazi. Insofar as that office is concerned----
    Mr. Deutch. Can you turn the microphone on, sorry.
    Mr. Namazi. As far as that office is concerned----
    Mr. Deutch. Wait, actually, sorry. Is it on?
    Mr. Namazi. Is that on?
    Mr. Deutch. OK, thank you very much.
    Mr. Namazi. The office has been very helpful. I have had no 
problem having communications. Obviously it is important to 
have a single point who is leading and managing this, but 
obviously from at least my point of view, while that office is 
very valuable and it has been very helpful to have the 
communications, we are all sitting here today because our loved 
ones are not with us yet.
    Mr. Deutch. Mr. Zakka?
    Mr. Zakka. We do appreciate all the support we are getting 
and we hope to see more of this support in the future.
    Mr. Deutch. OK, thanks.
    Ms. Levinson, last May you told Time Magazine that your 
family had been left behind after the Trump administration 
prioritized securing the release of American hostages in North 
Korea. Have you seen increased focus from the Trump 
administration on your husband's case since the release of 
those Americans in North Korea?
    Mrs. Levinson. Unfortunately, I have not. I feel that more 
could be done. Bob is still not home and so it is necessary for 
the Trump administration to make it a priority. Bob is the 
longest-held hostage, as I said before, and the U.S. Government 
needs to get him home and that is all we are asking for. It is 
not something that every American would not want for their 
family.
    Mr. Deutch. It is a little unorthodox and probably not 
quite the right thing to do, but I would just ask each of you, 
since I know the White House watches what happens here, shares 
it with the President, do you have a message for the President?
    Mrs. Levinson. I would ask that he would meet with us. He 
does not know us. He does not understand how difficult it has 
been for our family because he has not talked to us. We need to 
make sure that everyone in the U.S. Government at the highest 
levels knows how difficult it is for any family to be away from 
their loved one and unable to resolve it themselves.
    Mr. Deutch. I appreciate that.
    Mr. Namazi.
    Mr. Deutch. I am not sure that it is----
    Mr. Namazi. Yes. I mean obviously I would welcome very much 
the President's direct engagement. I mean again in the case of 
my family, he set a very, very high standard for me personally, 
my family personally, when he tweeted about my family. And I 
have a feeling with the incredible success he has had with 
releasing other hostages from other countries, if he does meet 
with us and hear our stories he will be even further motivated 
to spare no efforts especially given the urgency of my father's 
health. And I am sure he would be very keen to do more himself.
    Mr. Deutch. I appreciate that.
    Ms. Zakka.
    Mr. Zakka. I hope President Trump sees our case and puts a 
little bit more focus to it and accomplishes the same 
accomplishments he has done with other hostages throughout the 
world. And I hope our families are next, all of our families, 
because we do miss them and we cannot wait for them to come 
home.
    Mr. Deutch. I appreciate that and I appreciate those 
messages.
    Mr. Wilson, I will turn it over to you.
    Mr. Wilson. Thank you very much, Mr. Chairman.
    And this is one of the most meaningful hearings I have ever 
been to and it is so meaningful because of your participation, 
your heartfelt presentation.
    And for Mr. Zakka and Mr. Namazi, if you are able, can you 
tell us the conditions that you know about your loved one, how 
being held, and the importance for the world to understand that 
the Iranian regime is not only holding your loved ones, but 
also abusing them. And if each of you could explain, begin with 
Mr. Namazi and Mr. Zakka. And the only reason I did not ask 
Mrs. Levinson, because they still are concealing what occurred 
March the 9th, so we--that is why I am asking you.
    Mr. Namazi. Thank you. I mean since the arrest there has 
been just absolutely horrific mistreatment. I mean in the case 
of Siamak there has been also physical abuse. This has included 
the use of tasers. He has been placed in solitary confinement 
and isolation for close to a year. And in certain circumstances 
there was a threat of electric shock with the authorities going 
as far as actually putting wiring on him. He has had no 
mattress to sleep on for a very extended period of time. He was 
in a dark, cold cell.
    And in the case of my father, as I mentioned, he is on 
medical furlough right now, but you know while he was there he 
has been as an 82-year-old man someone woke up one morning and 
decided that let's put this old man in the solitary confinement 
for a few weeks. Well, who does this? Who wakes up and make a 
decision like this?
    We appreciate the attention. It has been a painful decision 
for me to come out and speak publicly as it has been for other 
family members, but I fear if I do not speak about this I--it 
is important for the world to know that the suffering we are 
going and our loved ones are going through and that is why the 
urgency.
    Mr. Wilson. Thank you.
    And, Mr. Zakka?
    Mr. Zakka. The treatment of everyone in Evin especially the 
ones taken from American citizens and other people they do not 
care about their physical condition. They do not care about 
their mental condition. They subject them to being in solitary 
confinement for extended periods of time with disregard of any 
human rights.
    Mr. Wilson. Thank you very much.
    And, Mrs. Levinson, it really is so impressive to be here 
with your family, and I look forward to having your input in 
trying to identify the most effective way forward. From your 
experience, from your study, from your family's study, and what 
talented family you have, what do you believe can be most 
effective to try to change the course of the Iranian conduct of 
the illegal concealing and holding of your husband?
    Mrs. Levinson. I am not sure what is going to resolve my 
husband's case. What I would hope is that both sides of the 
U.S. Government and Iran would work to get the cases of both my 
husband and all the other people being held hostage resolved. 
There is no reason for a government to hold an individual. I 
hope that the United States administration just continues to 
make it a priority to get all the hostages everywhere in the 
world home. These are the people who make up the United States. 
The United States is a country of freedom and these people have 
no freedom. And that is what we need to make sure the other 
governments do, especially Iran.
    Mr. Wilson. And we go back to the Tripoli pirates. I mean 
this has always been the standard of our country to recover 
hostages and not be subject to hostages and, sadly, and, Mrs. 
Levinson, in your situation there has been no contact at all.
    But, Mr. Namazi and Mr. Zakka, have you been in contact at 
all with the Iranian regime in terms of what may be required 
for their release, for your family's release?
    Mr. Namazi. I personally have had no contact with the 
Iranian Government. No.
    Mr. Zakka. Neither do I.
    Mr. Wilson. And, additionally, has there been any 
intimidation by any, all three of you, by the Iranian regime 
that could be directed from the Iranian regime? Has there been 
any intimidation effort on your family?
    Mrs. Levinson. No, we have not received any kind of 
intimidation. They have not acknowledged that they have Bob, 
officially, so they have not done anything as far as 
intimidating us.
    Mr. Namazi. Half of my family was ripped away from me, so I 
do not think they needed to call and threaten anymore. The 
action spoke very, very loudly. I know for a fact that my 
brother was constantly threatened with the arrest of my mom, 
for example, but from my perspective I would have rather had 
threatening calls, I mean between the decisions. I mean this is 
horrible to have to sit here and say this, but I would rather 
be threatened, beaten than have my father and none of my family 
members. But I wish they had taken me instead of my father 
because he would not be dying right now today, perhaps.
    Mr. Wilson. And, Mr. Zakka?
    Mr. Zakka. To be honest, I could not have said it better 
than my peer, Mr. Namazi. We did not have any intimidation, 
though they have--I have nothing to say, sir.
    Mr. Wilson. Again, as I conclude I want to thank each of 
you and what wonderful families you have. God bless you.
    Mr. Zakka. Thank you.
    Mr. Deutch. Mr. Vargas, you are recognized.
    Mr. Vargas. Thank you very much, Mr. Chair. Thank you for 
holding this hearing and the ranking member also, and 
especially I want to thank the witnesses here today.
    Mrs. Levinson, obviously I listened very carefully to your 
testimony and I mean what was very moving was the sad situation 
that your daughter may be walking down the aisle, again without 
your husband. I have two daughters and I think that was very 
moving. And then when you were asked, you know, if you could 
say anything to the President, you would like to talk to him. 
And I hope you do get a chance because you communicated that so 
well how sad it is and how tormenting it is not to have your 
husband home.
    And how that also, Mr. Namazi, your dad and your brother, 
Mr. Zakka, your dad, I hope you get that opportunity because I 
think there is more that we can do as a government to bring 
them home. I did want to ask specifically about that. I mean, 
my family has never been taken hostage, I hope they never do 
obviously, and I want to know what kind of contact do you have 
from the American government?
    Now obviously we talked about the Special Envoy O'Brien, 
but what kind of day-to-day contact or week-to-week or month-
to-month or year-to-year, what kind of contact do you have 
officially with the government as we tell you what we are doing 
or what we cannot do to help you?
    Mrs. Levinson. In Bob's case the U.S. Government, as I said 
before Bob was a retired FBI agent so we have always maintained 
contact with the FBI. We do have contact with--we did have 
contact with the State Department as well over the years and we 
have met with the high-level officials that we need to over the 
years.
    As far as the Hostage Envoy goes, I feel that it is much 
easier now because there is one person who you get in touch 
with and then you are able to get all the meetings you need 
through that one person. And the Hostage Envoy Mr. O'Brien does 
get in touch with us whenever he has new information to share. 
If we ask for a phone call they are always willing to talk to 
us. I have never seen any problem with getting in touch with 
them about the case.
    Mr. Vargas. That is good to hear. My question was going to 
be then, he does communicate with you then. You do not only 
call him, he sometimes calls you if he has information?
    Mrs. Levinson. Right. He will ask for a call with us and we 
will make an arrangement for actually the whole family to get 
on a conference line and talk about the case, and he has done 
that several times. And as I said, he has invited us to DC for 
meetings and so on, so he has done a very good job at this.
    Mr. Vargas. Thank you.
    Mr. Namazi, how about yourself?
    Mr. Namazi. I am of course in regular contact with senior 
administration officials and I live in Dubai so, and I come to, 
you know, Washington quite regularly, and on this trip also I 
did meet with them. I have had again not a difficulty in 
meeting with senior officials, although before the Hostage 
Envoy Mr. O'Brien was appointed, there were changes. It was not 
continuity and that was a challenge, you know, that it was 
almost a restart. And I know they are working hard for the 
release of my family as well as the other family members that 
we have here, but at the same time I feel there is not enough 
is being done fast enough, I mean especially in the sense of 
the urgency is very clear in the case of my father and it has 
been clear for the past year or two and the deterioration has 
been very rapid.
    And so while I do--I am very grateful for the engagement, I 
do hope that we can step up and deploy whatever tools we have 
as American government because obviously there is a lot we can 
do.
    Mr. Vargas. Yes. Well, I know even in your testimony you 
were reticent to come up and speak because of the--you were 
hesitant because of potential danger. But thank you for your 
bravery. Thank you for coming forward. And I know that you are 
very concerned because of your father's age and his illness, so 
I hope that this does encourage our government and obviously 
the regime in Iran to do more to release him.
    How about you, Mr. Zakka?
    Mr. Zakka. They do communicate with my lawyer, but 
personally they do not, and as needed.
    Mr. Vargas. So the Special Envoy has never communicated 
with you personally?
    Mr. Zakka. No, sir.
    Mr. Vargas. OK. Do you feel like you get the information 
that you need?
    Mr. Zakka. No, sir.
    Mr. Vargas. You do not, OK. So in your case then it does 
seem like we have to do a better job to communicate with you to 
let you know what is going on; is that correct?
    Mr. Zakka. Yes, sir. I sure hope so.
    Mr. Vargas. OK. My time has expired. Again thank you very 
much for showing the courage to come forward and I hope we can 
help. And again I want to thank the chair for the bills that 
they have proposed and I certainly will support them. Thank you 
very much. Thank you, Mr. Chair.
    Mr. Deutch. Thank you, Mr. Vargas.
    Mr. Chabot, you are recognized.
    Mr. Chabot. Thank you, Mr. Chairman. And I would like to 
begin by thanking Mr. Deutch for his commitment, I know, to the 
Levinson family. He has been involved in this for a long--it is 
obviously much harder on the family, but I know it is something 
he has been committed to and done everything that he could for 
his constituents in this particular instance, so we appreciate 
that.
    I know how frustrating it has been for obviously the 
family, principally, and a lot of the questions I think, you 
know, it mostly comes down to what can we do when we are 
considering legislation? Are there--have you all had a chance 
to review or was that done in cooperation with you? Are there 
things that you would like us to do additionally other than 
supporting that legislation?
    Mrs. Levinson, in particular was there something that you 
would like to, for example, you know, boy, I wish this would 
have gotten in the bill, or did not get in there. Are there any 
other thoughts that you have or----
    Mrs. Levinson. I personally have not seen the wording on 
the bill so I do not know exactly what it states. I would ask, 
a Special Envoy is I think something that is necessary, but I 
would hope that the administration would not use this as an 
excuse to pass the buck, so to speak, and not meet with the 
families themselves. I would like everybody to be able to see 
the families and see what they are going through and be able to 
help in any way possible.
    And sometimes I think because there is one person to go to 
who handles everything, it is hard. People just do not take the 
interest as much in the case. I do not think the overall 
government does that and we need to do that.
    Mr. Chabot. OK, thank you very much.
    Let me ask this. I know one of the things that being in 
your circumstances and, you know, obviously none of us can 
relate to this unless we are actually under those circumstances 
and we are not, but let me just ask you this. It must be very, 
very frustrating to have to kind of hold your tongue with 
respect to Iran and the government knowing that they have your 
loved one over there and if you express your outrage that they 
can take it out on your loved one, so you have to be somewhat 
careful about that. Is that the case or what? I would be 
interested in hearing from each of you.
    Mrs. Levinson.
    Mrs. Levinson. Honestly, that is always in the back of my 
mind. We have over the 12 years been silent and we have also 
tried to push them hard, and I do wonder every time we open our 
mouths whether it is going to have an effect on Bob and what 
happens to him, especially since we have no information----
    Mr. Chabot. Yes.
    Mrs. Levinson [continuing]. About what they are doing to 
him right now.
    Mr. Chabot. Yes. Just as Member of Congress, I am sure you 
are all familiar with Otto Warmbier who was taken by the North 
Koreans. Well, I used to represent the little part of the 
greater Cincinnati area that he was in--now it is Brad 
Wenstrup--and I think Brad felt the same way. We were very--as 
much as I hate Kim Jong-un and think he is a brutal, thuggish 
dictator who has done the most outrageous things to his own 
people, you sort of wanted to bite your tongue because you 
always thought if you are saying that they might take it out on 
this person knowing that they have anything to do with you. So 
I was always very careful until he got back here, obviously in 
a terrible state, but that has got to be even tougher for the 
family.
    Mr. Namazi and Mr. Zakka, how about, about holding your 
tongue?
    Mr. Namazi. It is an extremely difficult decision. Being 
here today for me was a very difficult decision because the 
Iranian Government will always take the easy way out and blame 
the victims for what it is doing to them. So every time I speak 
to the press, every time I come to hearings, which I wish it 
would end soon that I be here to celebrate as opposed to 
sharing the pain, but the fact is that it is important, I 
think, to--if there is not attention given to my family and 
others there could be even--I feel there could be even more 
mistreatment.
    So yes, I do fear but I have to wrestle that versus the 
absolute silence of what that would mean for them. I do not 
have that luxury of knowing what is right and wrong all the 
time. I have to go with my gut feeling and of course the advice 
I get. The Iranians have always insisted on keeping it quiet 
because who wants this kind of publicity? Who wants this kind 
of attention?
    So I learned the difficult way, because for the first years 
since this nightmare started for my family we did keep quiet. I 
broke my silence only when there was a conviction. And I have 
to say that was also encouraged by the previous administration 
to keep quiet especially when my brother was left behind. No 
one wanted to get that kind of attention on that side as well.
    Mr. Chabot. Thank you.
    Mr. Chair, my time has expired, but could Mr. Zakka answer 
as well?
    Mr. Deutch. Of course, of course.
    Mr. Zakka, you are recognized.
    Mr. Zakka. I am actually very fearful about what I say and 
what I do in front of the public in regards to IRGC or Iran 
just because they are very unpredictable. They will take 
anything and just maybe put it out on him and it does affect 
me. I do not know what I can say or what I cannot and how they 
will perceive it. It is a constant fear whenever I do present 
myself in public toward this cause.
    Mr. Chabot. Thank you very much. I yield back.
    Mr. Deutch. Thank you.
    Mr. Trone.
    Mr. Trone. First of all, I want to thank Chairman Deutch 
for holding this hearing. This is an unmitigated tragedy for 
the families. I mean I cannot--it is hard to comprehend a 
brother, a father, or a husband not going down the aisle with 
the daughters, it is mind boggling. America has had a tradition 
of no person left behind and we owe it to you folks to continue 
that.
    And I guess my first question would be, how would you 
characterize the differences between how the Obama 
Administration was working on this versus the Trump 
administration?
    Mrs. Levinson.
    Mrs. Levinson. The Trump administration--the Hostage Envoy 
was not in place during President Obama's first administration. 
He was only created in, the position was only created at the 
end of his second term.
    Mr. Trone. Who was the Hostage Envoy?
    Mrs. Levinson. James O'Brien. And now with the Trump 
administration that position has been in place since the 
beginning. And so it is a whole different situation and it is 
difficult because I cannot really judge the two administrations 
differently because of the two different situations. In the 
beginning we had no contact with President Obama or his 
administration the way we do since the Hostage Envoy was 
created, so I would say that the Hostage Envoy is helpful.
    The differences also, the Obama Administration was willing 
to talk to the Iranians and the Trump administration has said 
they will not talk to the Iranians. So it is a----
    Mr. Trone. It is going to be hard getting a resolution if 
we do not talk to the Iranians.
    Mrs. Levinson. Right, right.
    Mr. Trone. Mr. Namazi?
    Mr. Namazi. I mean again, you open with a very correct 
statement. As Americans we do not leave anyone behind and with, 
you know as I have mentioned a few times, but I cannot help 
myself because this is just so--I am living every day as a 
consequence of that--that is what I thought. That is what my 
family thought. That is what we all believe in. This is what 
America stands for.
    We realize on national television that my brother was left 
behind. So yes, it was Iranians. It was Revolutionary Guards 
who took my family and kept them. It was Obama Administration 
who chose to leave Siamak behind for reasons I will not 
understand until today. My family will not understand.
    So my engagement again was very unique because for the 
first few months obviously that was still my family's only hope 
was the engagement. And I met with Jim O'Brien, an amazing 
person and he cared. And people who take this position is not 
for the money, obviously. It is not for the glory. It is a 
thankless job and I appreciate people who are dedicated to 
this. What policy is going to be implemented by these 
individuals and what powers do they have?
    And I share Mrs. Levinson's concern that yes, it is amazing 
and it is incredible to have this Special Presidential Envoy 
because there is one person in charge. At the same time, I used 
to go to the White House quite often, not that I want to go to 
the White House, you know, do not misunderstand me. But I felt 
I was being more engaged with decisionmakers.
    And I think, one, you had asked what can be done with the 
Presidential Envoy. I think perhaps empower him even more and 
for him to be a principal. And we had spoken about a position 
as Ambassador because obviously whatever decisions are made are 
made at the White House and especially with this administration 
that has a whole different approach with Iran that becomes even 
more important.
    Mr. Trone. Mr. Zakka?
    Mr. Zakka. I am not very aware of how like government works 
and the policies that go around, at least most of them. What I 
could see is that the new administration is more upfront with 
their, well, activities and everything they do a little bit 
more than the Obama Administration.
    Mr. Trone. Well, I tell you, I think it is certainly 
important to Mr. Wilson's point that we have an opportunity, 
you have an opportunity to sit down with the President at some 
point in time, sooner not later. Every day, it is a bad day--
and tell him your story and if he has that as an imperative he 
can get that job done. And we owe it to you to get that job 
done. Thank you.
    Mr. Zakka. Thank you.
    Mr. Deutch. I thank you, Mr. Trone.
    Mr. Watkins, you are recognized.
    Mr. Watkins. I yield my time.
    Mr. Deutch. OK, thank you.
    Mr. Keating.
    Mr. Keating. Thank you, Mr. Chairman. I would like to thank 
you and the ranking member for having this important hearing. I 
also would like to say, Mr. Chairman, I think as Mrs. Levinson 
knows in particular that each and every opportunity over the 
years, you have been making sure at every possible committee 
hearing that we have had publicly that people know that this is 
a priority for us, that these Americans are being detained 
without legal justification.
    And I would like to really thank the witnesses for coming 
forward here today because it is not easy. It takes a lot of 
courage and I know how difficult that must be. But I also know 
how important it is that we hear your voices and that the rest 
of America hears your voices through these hearings. And I 
hope, too, the Iranians hear your voices.
    In fact, I will tell you with your presence here--I want to 
say this and I think I do not speak for myself in many ways, 
but this Congress there is legislation to impose sanctions on 
those Iranians that are responsible for and complicit with 
politically motivated and extended detention or trial of U.S. 
citizens or legal permanent citizens. And your presence here 
and hearing these stories and seeing the actions of the Iranian 
Government in doing this will shape greatly the way I view that 
legislation.
    And that legislation would not only pertain to sanctions 
individually on those people, but on their families as well.
    So thank you for being here in that regard. We have heard 
most of what you have had to say. I have, like so many members, 
I have family members who are being detained, Paul Whelan in 
Russia, right now without legal justification.
    And I would just like to ask one question other than the 
statement I made. Is there anything outside the official areas 
of action that is taken by the State Department or by the Envoy 
that we could ever be helpful with, you know, the effects on 
your family, maybe some help for your family and they are 
coping with this that there might be areas where we can provide 
some assistance?
    Before I did this I was a district attorney and I know that 
people suffering the kind of trauma you are having, although it 
is hard to compare some of that I know that what they are going 
through as a family and what they are going through themselves. 
Could you suggest perhaps, maybe some other resources that 
might help you or your family members to get through this?
    Mrs. Levinson. Actually, I think the Victims Services 
Administration, the people in that group do help sometimes. I 
have been in contact with them and they have helped my family. 
I do not know what else they can do right now.
    Mr. Keating. I know. There is only one thing that will 
remedy the situation.
    Mrs. Levinson. Right, right.
    Mr. Keating. And that is getting them back.
    Mrs. Levinson. Right.
    Mr. Keating. And these are years of your life and of their 
lives that are taken away. And all our lives are measured in 
years and hours and minutes and it is a terrible deprivation. 
Any other suggestions that you might have other than--you 
really do not have to suggest much or tell us. Your presence 
here says it all, so thank you for doing this.
    And I yield back.
    Mr. Deutch. Thank you, Mr. Keating.
    Mr. Waltz, please, you are recognized.
    Mr. Waltz. And thank you, Chairman and Ranking Member 
Wilson, for allowing me to support the families today and your 
important legislative efforts. And I just want to echo my 
colleagues, the Iranian--I do not even want to say habit, I 
want to say practice--deliberate State practice of hostage 
taking that has been a part of their foreign policy since the 
taking of our embassy in 1979. We may remember former Army 
officer and CIA Officer Buckley who was tortured and hung 
through the Iranian proxies Hezbollah, in the 1980's, and they 
are still operating through proxies. I also want to call 
attention in addition to your tragic cases to the longest-held 
journalist, Austin Tice, through the Syrian regime backed by 
Iran.
    My question for you--well, before I get to my question, I 
certainly agree with my colleagues and I would be interested in 
your families' take on this as well. I certainly agree we need 
to turn up the pressure through sanctions that will be in this 
legislation. I think that is how the Iranian regime responds.
    I also understand your desire for dialog and talk and would 
certainly support a humanitarian track that is limited but 
specifically talks about these cases and opens that up. My 
guardrail on that and I would be interested in your take, is 
that no other substance though. And as a way to keep up the 
pressure to keep them to the table and no other substance in 
terms of improving our relationship, in terms of easing the 
sanctions, in terms of any other thing the regime wants, 
without resolution on these issues whether it is the--and it is 
the full release.
    My question is, one, your opinion there, do you agree with 
that if the administration were to take that approach?
    And then, second, specifically for you, Mr. Namazi, can you 
elaborate on how your brother was left behind, your 
understanding of how that happened? I think we need to get that 
out in the public consciousness in a very real way so that it 
never happens again with any other type of negotiation. So just 
first a humanitarian track, but no other substance and then 
second, if you can elaborate on that, Mr. Namazi.
    Mr. Namazi. Thank you. I believe it is very much consistent 
with American values of cherishing life and cherishing bringing 
Americans home. And we can only do that in my view--and I do 
not think there are many people who would disagree with that, 
really--is through dialog and a very narrow dialog just as you 
have described it on a humanitarian track.
    We have managed to get other hostages home from countries 
that we thought we were going to go to war with imminently, you 
know, I am referring to North Korea. If you recall, there were 
discussions and fear of a nuclear engagement and within months 
through dialog, I would imagine, and then other countries. So, 
yes, I would very much support that. I believe not doing it 
would result in failure.
    Mr. Waltz. So not to interrupt you, Mr. Namazi, but you 
would agree then as a resolution in all of these cases with 
Iran as a precondition for any other talks?
    Mr. Namazi. From my point of view----
    Mr. Waltz. From your perspective.
    Mr. Namazi. From my point of view, this is the most 
important thing in the world for me, yes. I do not know why my 
brother was left behind. I have heard different stories. I have 
heard different versions and I have also been accused, my 
family has also been accused unofficially and off the record by 
unnamed sources that we never requested help. This is a puzzle 
that I will take to grave with me, I would imagine.
    But the fact is that Siamak was left behind. He was left 
behind when there was an opportunity not to leave him behind. 
And I think it was because it was so important to have a deal 
on a specific date and that date could not be----
    Mr. Waltz. You are referring to the Iran deal?
    Mr. Namazi. Yes.
    Mr. Waltz. Yes.
    Mr. Namazi. I cannot imagine anything else. But I do not 
understand what happened in the back doors. I have heard 
different stories. I have never heard--I hope 1 day someone 
writes a book who knows what really happened and I can find out 
what happened to my family.
    But the painful truth is he was not on a plane when other 
hostages were on there. We found out about it, did not even get 
the heads up. Not that that would have made it any easier, but 
if someone had called and said, oh, we cannot tell you why, 
but, you know, be prepared for bad news.
    Mr. Waltz. Mr. Namazi, I am sorry to interrupt you.
    Just in the interest of the little bit of time I have 
remaining, would--I think there is a notion within media that 
we deal with that and well-meaning that they do not want to 
highlight these cases because they do not want to, you know, 
increase the value of these hostages that are clearly being 
held as part of hostage diplomacy.
    And as you have gone through this process do you see now 
this horrible process you are going through that there is 
actually value, more value--I know there is risks and you have 
all described there are risks, to my colleagues. But just as a 
way for us to help in highlighting these cases and keeping the 
spotlight on them that there is more to be gained there than 
risk? Is that, I mean is there kind of a consensus there 
amongst the families?
    And apologies, Chairman, for going over my time.
    Mrs. Levinson. Bob was actually also left behind in that 
2016 deal. And they were supposed to continue talking about his 
case and they were supposed to have meetings between the U.S. 
Government and the Iranian officials on Bob's case. After the 
deal was made they had one meeting and nothing happened and it 
took from January to May before they had that one meeting. They 
had that one meeting and said they could not resolve the case 
and so therefore nothing else was done.
    When asked about the differences between the two 
administrations, I would say that although the Trump 
administration has the Hostage Envoy in place, the Obama 
Administration had an opportunity to get Bob home and failed to 
get him home and they had 8 years to do it. I hope that 
President Trump does not follow that lead and leave Bob behind 
again.
    I think we need dialog. I think we need to figure out how 
to make that dialog happen because the Iranians do not need to 
come to the table if they do not want to. Something has to 
change to make them want to come to the table.
    Mr. Deutch. Thank you very much, Mr. Waltz.
    Ms. Levinson, Mr. Namazi, Mr. Zakka, to your families we 
are immensely grateful for your participation at our hearing 
today. Thank you for reminding us how extremely personal this 
is for you. Thank you for reminding us that we have a critical 
role to play in bringing your family members home.
    And I would echo what Mr. Wilson said, the power of your 
testimony today will help compel that we continue to act on 
behalf of your loved ones and do everything that we possibly 
can to ensure that this is the last time that we ever have to 
have this hearing. Thank you and this hearing is adjourned.
    [Whereupon, at 2:42 p.m., the subcommittee was adjourned.]

                                APPENDIX
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]


                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
